HHS/OIG-Audit--"Review of the 1997 Adjusted Community Rate Proposal for a Massachusetts Risk-Based Managed Care Organization, (A-01-98-00510)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the 1997 Adjusted Community Rate Proposal for a Massachusetts Risk-Based Managed Care Organization," (A-01-98-00510)
November 25, 1998
Complete
Text of Report is available in PDF format (707 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, there is no statutory or regulatory authority governing allowability of administrative costs included in the
adjusted community rate (ACR) process for determining Medicare capitation rates under risk-based contracts with managed
care organizations (MCO). At a Massachusetts risk-based MCO we identified over $1.4 million in administrative costs that
would be considered inappropriate and unallowable if considered in light of the Medicare program's general principle of
paying only reasonable costs. Examples of such costs included lobbying costs, entertainment costs and unsupported costs.
The methodology which allows MCOs to apportion administrative costs to Medicare is flawed and results in Medicare covering
a disproportionate amount of the MCO's administrative costs. Additional reviews are underway and preliminary results show
similar problems at other MCOs. The results of these reviews will be shared with the Health Care Health Financing Administration
in the coming months so that appropriate legislative changes can be considered.